CERTIFICATE OF SERVICE
NO. 19-251 & 19-255
Americans for Prosperity Foundation
Petitioner,
v.
Xavier Becerra, Attorney General of California
Respondent.
__________
Thomas More Law Center
Petitioner,
v.
Xavier Becerra, Attorney General of California
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the THE
BUCKEYE INSTITUTE AND 34 PUBLIC POLICY RESEARCH ORGANIZATIONS AND ADVOCACY GROUPS
AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONERS, by mailing three (3) true and correct copies
of the same by Fedex 2-Day, prepaid for delivery to the following addresses.
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com
Counsel for Americans for Prosperity
Foundation

John J. Bursch
Alliance Defending Freedom
440 First Street NW, Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org
Counsel for Thomas More Law Center

Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Counsel for Xavier Becerra, in his official
capacity as the Attorney General of California

Lucas DeDeus
March 1, 2021
SCP Tracking: Carson-88 East Broad St., Suite 1300-Cover Cream

